<html>
<title> - GLOBAL WARMING MOUNTAINTOP ``SUMMIT'': ECONOMIC IMPACTS ON NEW ENGLAND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



 
 GLOBAL WARMING MOUNTAINTOP ``SUMMIT'': ECONOMIC IMPACTS ON NEW ENGLAND

=======================================================================


                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2007

                               __________

                            Serial No. 110-6


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
57-968                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr.,
JAY INSLEE, Washington                 Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                                                                   Page
                               __________
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. John B. Larson, a Representative in Congress from the State 
  of Connecticut, opening statement..............................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Paul W. Hodes, a Representative in Congress from the State 
  of New Hampshire, opening statement............................     7
Hon. Carol Shea-Porter, a Representative in Congress from the 
  State of New Hampshire, opening statement......................     8

                               Witnesses

Ms. Alice Chamberlin, Special Assistant for Policy, Energy, 
  Environment and Transportation, Office of Governor John Lynch..     9
Dr. Timothy Perkins, Ph.D., Director, Proctor Maple Research 
  Center, University of Vermont..................................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    60
Dr. Cameron Wake, Ph.D., Research Associate Professor, Climate 
  Change Research Center and Department of Earth Sciences, 
  University of New Hampshire....................................    22
    Prepared statement...........................................    24
Mr. Bill Koury, Former President, The New Hampshire Wildlife 
  Federation, Avid Sportsman.....................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................    65
Ms. Betsy Blaisdell, Manager, Environmental Stewardship Program, 
  Timberland.....................................................    35
    Prepared statement...........................................    37

                           Submitted Material

Prepared statement of Governor John Lynch........................    71


 GLOBAL WARMING MOUNTAINTOP ``SUMMIT'': ECONOMIC IMPACTS ON NEW ENGLAND

----------


                          MONDAY, JUNE 4, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m. In 
Franconia, New Hampshire, on the summit of Cannon Mountain, 
Hon. Edward J. Markey [chairman of the committee] presiding.
    Present: Representatives Markey, Larson, Hodes, Shea-
Porter, Sensenbrenner and Walden.
    The Chairman. This hearing will come to order.
    I am Congressman Ed Markey from the State of Massachusetts. 
I am the chairman of the Select Committee on Energy 
Independence and Global Warming. We thank all of you for coming 
here today to the summit of Cannon Mountain for our field 
hearing on this very important issue of global warming.
    When we initially scheduled the hearing, we had hoped that 
the weather would cooperate and we would have a clear view of 
New Hampshire and New England. However, as Mark Twain once 
said, one of the brightest gems of the New England weather is 
the dazzling uncertainty of it.
    Despite the clouds, today's hearing will still give us a 
lot of clarity about the ways that global warming is affecting 
New England and its economy. We are sitting at an elevation of 
4,180 feet, and our hopes are that it will help to give us a 
perspective as to how this issue is affecting New England and 
other parts of our country and the world that are at higher 
elevations.
    Critical components of the New Hampshire economy, such as 
skiing, tourism, maple sugaring, hunting, and fishing are 
especially vulnerable to the impacts associated with global 
warming. Tourism spending associated with many of these 
industries currently brings billions of dollars into New 
Hampshire every year. We are already seeing impacts associated 
with global warming here in the Northeast such as warming 
winters with less snow and more rain, a shorter snow season, 
earlier leaf and bloom dates in the spring and a growing number 
of heavy precipitation events.
    According to a 2006 analysis by a team of climate experts, 
including one of whom will be testifying today, the average 
temperatures in the Northeast have been increasing at a rate of 
almost a half a degree Fahrenheit per decade since 1970 and 
during winter months at a much faster rate of roughly 1.25 
degrees per decade. Over the last 35 years, winter temperatures 
in the Northeast have increased overall by a remarkable 4.4 
degrees Fahrenheit.
    As we will hear from our panel today, global warming has 
the potential to completely devastate the winter outdoor 
recreational industries that are essential components of the 
New England economy and their way of life. We already know that 
if we don't cut global warming pollution we may need to rename 
Glacier National Park because one day there may be no glaciers 
in that park, and now it appears we may also have to one day 
rename the White Mountains because there may be no more snow.
    However, the response from the people of New Hampshire at 
the State and local level has been astonishing. At the local 
level, the residents of 164 cities and towns all across the 
State went to their town meetings and passed a climate change 
resolution. The resolution in part calls on the President and 
the Congress to take action to set up a national program to 
reduce greenhouse gas emissions.
    At the State level in August of 2006, Governor John Lynch 
endorsed the goal of producing 25 percent of New Hampshire's 
energy from clean renewable sources by the year 2025 and last 
month signed the Renewable Energy Act to set the renewable 
energy standards for electric utilities in the State.
    New Hampshire is also an inaugural member of the Regional 
Greenhouse Gas Initiative, a landmark bipartisan agreement 
between the Governors of 10 Northeastern and mid-Atlantic 
States to reduce emissions of carbon dioxide from power plants 
10 percent below current levels by 2019.
    Being in New Hampshire today further highlights the 
economic risk of global warming and the growing public support 
around the country for taking bold action. The Congress now 
needs to catch up to the American people who are calling for 
national mandatory programs to reduce our heat-trapping 
emissions.
    And now I would like to recognize the ranking member of the 
select committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    [The statement of Mr. Markey follows:]
    [GRAPHIC] [TIFF OMITTED] 57968A.001
    
    [GRAPHIC] [TIFF OMITTED] 57968A.002
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    This is the first of many expected field hearings with the 
Select Committee and with the possible exception of Holy Hill 
in my southeastern Wisconsin district, I can't imagine a more 
beautiful location for this committee to begin its road show 
than here at Cannon Mountain and Franconia, New Hampshire.
    The chairman has said this committee will travel to several 
locations in an effort to get a firsthand look at climate 
change, although I doubt we will go to anywhere with a more 
potential scenic view than the one that we have. I would hope 
that our friends in the press would not put a headline saying, 
Global Warming Committee Starts Out with Heads in Clouds, 
because that is where we are here.
    With these field hearings, we will get a closer look at how 
warming temperatures specifically affect some regions. 
Undoubtedly, there will be an emphasis caused by climate change 
and greenhouse gas emissions, and in some respects perhaps not 
every effect is all bad. For example, Mr. Perkins, the Director 
of the University of Vermont's Proctor Maple Research Center, 
will tell us today that the maple syrup season is getting 
shorter. But he also knows that the shorter season has not yet 
resulted in lower syrup harvests. Not only that, Dr. Perkins 
points out that increased carbon dioxide concentrations also 
lead to higher sugar production in maples.
    It is no stretch of the imagination to say that a warming 
climate will reduce days that one can ski or harvest sap from 
maple trees. There is little doubt that these kind of changes 
would also have negative effects on New England's economy and 
culture. But it will take the imagination to develop solutions 
that will help protect ski seasons and maple sap harvest 
without hurting the economy any even more. For that, the 
solution will have to include ways to adapt to the changing 
climate.
    Dr. Perkins notes that the growth potential of maples in 
the Northeast is limited because of marginal soil nutrition and 
long-term nitrogen saturation, among other reasons. We know 
that healthy forests can help take carbon dioxide out of the 
atmosphere and that smart forest management should be a 
component of any climate change policy.
    I believe healthy forests management policies that help 
encourage maple tree growth are more likely to have a positive 
effect on those trees than greenhouse gas regulations whose 
effect may never be seen.
    When considering climate change policy, most of the 
important principles Republicans will insist on is that the 
policy actually leads to measurable, tangible improvements to 
the environment. Republicans will insist that any policy that 
puts an emphasis on advancements in energy technology while 
also making sure that the policy doesn't hurt the economy or 
cost us jobs. And I would point out that some of the Kyoto 
compliance proposals that have been out there will result in an 
increase in the price of gasoline by over a dollar a gallon 
over and above the high prices that we are already paying, and 
that is certainly going to have an impact on any economy that 
is heavily dependent upon the tourist trade.
    While this magnificent mountain provides a great vantage 
point to see the surrounding countryside when the clouds are 
gone, I am not sure this location will help bring realistic 
solutions into view. We need a mountain high enough to see to 
India and China, but I doubt that the summit of Mount Everest 
is one of the designations that Mr. Markey has on our agenda.
    It may seem hard to believe that these faraway nations 
could have an effect on this beautiful mountain a half a world 
away, but the scientific consensus appears to tell us just 
that. Already, China is expected to surpass the U.S. in carbon 
dioxide emissions this year. That is why Republican Members of 
congress will insist that any policy addressing greenhouse gas 
reduction also includes China and India.
    I do salute President Bush last week in announcing a policy 
that engages both China and India which have walked away from 
the Kyoto Policy beginning in 1995 and thus the Kyoto Treaty 
and the mechanism that is set up only apply to countries which 
are in the developed world, rather than the 134 countries which 
are not. When talking about global warming, there is a lot to 
think about locally, but if we act, we must do so globally.
    Thank you.
    The Chairman. The Chair recognizes the gentleman from our 
neighboring State of Connecticut, the gentleman who is the vice 
chairman of the Democratic Caucus, Mr. John Larson.
    Mr. Larson. Thank you, Mr. Chairman. I thank you for 
holding this hearing in our distinguished colleague Paul Hodes' 
district, and it is great to be up here in New Hampshire.
    We have just come from a trip with the Speaker and the 
chairman of this committee to Greenland, then on to Germany to 
meet with Chancellor Merkel, then on to the U.K. To meet with a 
number of MPs whose top priority is climate change as well, and 
then on to the European Union and back home. And our first 
stop, of course, was here in New Hampshire. It is good to be 
here with my colleague, Carol Shea-Porter as well.
    They are an outstanding addition who, I think, understand 
intuitively, as do the 164 communities in New Hampshire, what 
we face. It is a sense of urgency, and to that sense of urgency 
the worst thing I think any elected official or any person can 
utter was ``we were too late.'' we will be if we don't respond 
in the kind of manner that we need to do. Making sure, as Mr. 
Sensenbrenner said, that the science is right.
    In Greenland, we also relied on the Inuit Indians, who 
actually fish in that area and hunt in that area, so there was 
firsthand, anecdotal proof of what is going on, something that 
your eyes could not deny in terms of the glacial melt that is 
occurring there.
    I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. I am Congressman Greg Walden. I represent the 
people of Oregon's Second Congressional District. It is great 
to be here on your mountaintop in New Hampshire. The one in my 
district rises 11,232 feet; and the base of our ski run, 45 
minutes from where I live, starts at 4,000 feet. So we are no 
strangers to these issues and the importance of having a good 
snow pack for our winter recreation.
    I, too, just returned from a week overseas meeting with 
leaders in places like Denmark and Belgium and in Germany and 
in London; and we talked a lot about the issues related to 
greenhouse gas emissions, what we can do about them, what has 
worked over there in terms of their cap and trade system and 
how we can learn from mistakes that they made as we look at 
legislation that works for our country.
    The chairman of our subcommittee, Rick Boucher, who is a 
Democrat from Virginia, laid out a timeline that he thought 
that Congress might work on to produce a bill for first 
consideration as early as this September. But he also said it 
should be bipartisan, industry supported, supported bicamerally 
between the Senate and the House and the President and that it 
wouldn't put an adverse burden on America's economy and 
consumers.
    For example, we learned in Germany, when they did the 
initial allocations in credit in their carbon and cap system, 
they overallocated; and the utilities took that opportunity 
cost and passed it on to their rate payers, resulting in 
electricity price increases of up to 20 percent in some cases. 
So, as they move into the next phase, they are trying to figure 
out how not to repeat that.
    These are lessons we are trying to learn here as we look at 
what works for New Hampshire may be different than what may 
work in Oregon or a southern State. How do we pull together as 
a country to address this very important issue as an 
environment and then internationally? How do we pull everybody 
in to do the right thing?
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Now I turn to recognize the Congressman who represents this 
district, the host congressional district for our first field 
hearing here in the United States. I consider our trip to 
Greenland to be a field trip of historic import as well. The 
gentleman from New Hampshire, Paul Hodes.
    Mr. Hodes. Thank you very much, Mr. Chairman.
    I want to welcome everyone to the Second Congressional 
District of New Hampshire and to Cannon Mountain where the 
steep trails and challenging conditions challenge old knees 
like mine.
    This is a very important hearing. We are all aware of the 
scientific reports outlining the dangerous environmental 
impacts of global warming. In New England and in New Hampshire, 
however, global warming also poses a threat to our economic 
well-being and our way of life. An increase in the average 
temperature by even a few degrees would be disastrous to the 
agriculture, forestry, and tourism industries here.
    Previous Congresses and the Bush administration, frankly, 
have ignored the growing crisis of global warming. Now we, as 
Members of the 110th Congress, must enact a solution that meets 
the challenges posed to both our environment and our economy.
    The issues of energy, climate change, environment, and 
national security are absolutely intertwined; and it will be up 
to us as we move forward to redefine what real security for 
this country means.
    We have got to bring predictability to businesses who are 
waiting to go green. Many businesses are starting to act 
voluntarily, but many are sitting on the sidelines waiting for 
Federal regulations that will provide a predictable set of 
standards. We have got to help revitalize our economy and keep 
us competitive in a global economy, and going green with the 
right energy policies will bring new jobs to this country.
    We have got to unhook from energy produced by unfriendly 
countries. We need to make America number one in the world in 
energy efficiency, conservation, and the development of new 
energy technologies so that we can export goods and services to 
the world that help the world and earn us a respect as world 
leader.
    Granite staters have led the Nation to action on 
environmental issues before. In 1983, over 100 New Hampshire 
towns passed a resolution calling on Congress to curb acid 
rain, and today we have reduced sulfur dioxide emissions from 
power plants by 40 percent compared to 1980 levels.
    One hundred and sixty-four New Hampshire towns, including 
our hosts here today in Franconia, have passed a resolution 
urging Congress and the President to establish a national 
program to reduce greenhouse gas emissions and to initiate more 
aggressive research to develop sustainable energy technologies 
in ways that will strengthen our domestic economy.
    But this hearing today is vital to understanding the 
economic implications of global warming policy in New 
Hampshire, New England, and the United States.
    I thank you for coming to New Hampshire. I thank you for 
coming to the Second District, and we look forward to the 
testimony of our witnesses.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    And the Chair recognizes the gentlelady from New Hampshire, 
Carol Shea-Porter, who represents the other half of this great 
State.
    Ms. Shea Porter. Thank you, Mr. Chairman; and good morning 
to everybody. It is a great honor to be here.
    On the way up--and I have been on this car more times than 
I want to tell because I do get a little nervous riding up--but 
I saw damage to the trees. The person who brought us up told us 
it is from the sulfuric clouds, and that just absolutely pains 
me to think that we are continuing the degradation of our 
forests and our economy. But it is not hopeless.
    I was talking to some kids from high school, 17, 18 years 
old. If you are here, raise your hand, because I am so proud of 
all of them. They hiked up here so they could have their input, 
and they were carrying a flag that was designed that said 
``patriotism is green,'' and that is true. And that is what I 
wanted to address, that patriotism is green, and we need to 
educate our young and ourselves to do this.
    We are now at the point where Congress has to go in 
overtime and in overdrive if we are going to beat this back and 
change the warming, but we can do this. You know, we have it in 
our genes to succeed. We are the children and the grandchildren 
of that generation that fought that world war and that sent us 
to the moon and did all of these other great things. We need 
our self-confidence back, but we also need the political will 
to do this, and I am pleased to say that we are now seeing in 
Congress a bipartisan effort to make that change.
    I myself think we could go faster and that we must go 
faster. I think that if we go ahead and put an Apollo-like plan 
in--and I have spoken to a number of people, scientists who say 
it can be done--we could achieve independence from energy from 
outside energy sources that are not friendly to us; and, of 
course, I am speaking specifically about some countries in the 
Middle East. We could do this in the next decade, and we could 
create jobs while we do that.
    And we owe it to these kids. I look at their faces, and I 
know they are looking at us the way we looked at our parents. I 
looked at my parents and their generation as just awesome 
people that could take on the problems of the world and 
succeed. They are looking at us with the same kind of hope, and 
we owe it to them, and we owe it to the children around the 
world to do this.
    It is okay if not every country signs on board to do this. 
We still have the responsibility to be the moral leaders and 
the scientific leaders and we have the talent. Look who is 
sitting in front of us at this panel. We have everything we 
need as long as we pull together and believe that we can and we 
must and we will succeed.
    So I thank all of you for coming today. I have high hopes 
for Congress, and I have high hopes that the President will 
start to move forward and that we will see the change that we 
owe the next generation.
    Thank you.
    The Chairman. Time for opening remarks from Members of 
Congress has expired, and we will now turn to hear from our 
expert witnesses.
    Our first witness is Alice Chamberlin. She is testifying on 
behalf of Governor John Lynch who is now a recognized national 
leader on this issue.
    We welcome you, Ms. Chamberlin. Whenever you are ready, 
please begin.

 STATEMENT OF ALICE CHAMBERLIN, SPECIAL ASSISTANT FOR POLICY, 
ENERGY, ENVIRONMENT AND TRANSPORTATION, OFFICE OF GOVERNOR JOHN 
                             LYNCH

    Ms. Chamberlin. I don't know if my mike is on.
    Mr. Chairman, Congressman Sensenbrenner, members of the 
committee, welcome, and particularly to our congressional 
delegation, welcome. On behalf of Governor Lynch, it is my 
privilege to welcome you here today at Cannon.
    We wish the weather was better. I know that the Governor 
would want me to invite you back when the weather is beautiful; 
and if it clears behind you, I will let you know.
    But we are here today because Cannon is an appropriate 
place that you have chosen very well to talk about global 
warming and the impacts of global warming.
    All of the activities that we depend on as a State to bring 
recreation and tourism, our traditional values and lifestyles 
of maple sugaring, hiking, skiing, snowmobiling, they are 
things that we rely on; and those are the activities that are 
threatened by global warming.
    You are going to hear a lot about the details of the 
impacts of global warming. But I want to focus on the 
Governor's behalf on a couple of things that have been very 
important to his administration.
    In 3 years, we have had 300-year flood events in New 
Hampshire; and those flood events have had consequences of loss 
of life, tragic loss of life, and tremendous damage to the 
infrastructure, somewhere upwards of $35 million to roads, 
bridges, and private property. These are all costs that are 
literally borne locally by the State and by the Federal 
Government. FEMA has been a great assistance in helping the 
State recover from floods.
    We are also in the process of studying our flood management 
regime in New Hampshire to understand if we are really doing it 
in the way that it is necessary in light of changed 
circumstances and the unpredictable effects of climate change, 
and that is another drain on State and Federal resources.
    So these impacts are already very real in New Hampshire, 
and we are concerned that they will be catastrophic if the 
impacts that are predicted from the Northeast Climate Impacts 
Assessment start to come to fruition. Those predict late in the 
century that the Northeast will see winter snow season cut in 
half, sea level rise up to nearly three feet and more than 60 
days of temperatures above 90 degrees in many of our cities. 
For New Hampshire, those consequences would be catastrophic.
    You have come to Cannon Mountain. One example is the 
importance of our ski industry. That industry alone is about 
8.6 percent of the State's total direct spending from tourists 
and visitors and translates into something like $420 million of 
indirect spending and 17,000 jobs. We can't predict global 
warming, but we know the asset that we have now with that 
industry, and New Hampshire depends on it, relies on it and 
promotes it and will continue to.
    We need to address global warming to protect our ski 
industry as well as many other industries, and you will hear 
more about those from other witnesses.
    But, you know, New Hampshire has a proud tradition for 
practical and bipartisan problem solving; and we approach and 
Governor Lynch approaches the problem of global warming with 
that in mind. He works with a multitude of stakeholders, 
multitude of opinions. He seeks consensus, and he keeps an eye 
on the bottom line.
    And, Chairman Markey, you mentioned some of the initiatives 
that the Governor has undertaken to address climate change, and 
they have a lot of indirect benefits in terms of the economy of 
the State as well: reducing energy use, improving energy 
efficiency. It is good for the environment. It is a critical 
step in addressing global warming, but by reducing costs to 
State government, to industry, to residents, we keep an eye on 
the bottom line as well; and we they think, as you said, 
Congressman Sensenbrenner, that is really a critical part of 
the solution to global warming.
    I want to speak particularly just to two initiatives that 
the Governor has undertaken, and I see that I am out of time.
    The Chairman. If you could summarize. Each witness has 5 
minutes.
    Ms. Chamberlin. The renewable energy portfolio that we just 
passed, passed our Senate 24 to 0, so I think bipartisan 
cooperation is possible on these; and we will find that support 
among New Hampshire residents as well as people from all across 
the country to address global warming.
    And, finally, I just want to say that the initiative the 
towns and cities took across New Hampshire at their town 
meetings really represent the leadership that we look to in New 
Hampshire. So I advise all of us in our work in New Hampshire 
and across the country to keep in mind that citizens will lead 
on this issue.
    Thank you very much.
    The Chairman. The gentlelady's time has expired.
    Our next witness is Dr. Timothy Perkins. Dr. Perkins is the 
Director of the Proctor Maple Research Center, a field research 
station of the College of Agriculture and Life Sciences at the 
University of Vermont. The Proctor Maple Research Center is the 
Nation's oldest and largest facility dedicated to the study of 
the maple trees.

 STATEMENT OF TIMOTHY PERKINS, PH.D., DIRECTOR, PROCTOR MAPLE 
             RESEARCH CENTER, UNIVERSITY OF VERMONT

    Mr. Perkins.  Mr. Chairman, thank you for inviting me to 
address you today.
    This location atop Cannon mountain has significance in 
today's discussion because nearly 75 percent of the maple syrup 
that is made in the U.S. is produced within about 150 miles of 
this location. In addition, tens of thousands of visitors from 
around the world converge upon New England and New York each 
year to witness the spectacular autumn foliage. In both cases, 
these gifts derive from the northern hardwood forests.
    Global warming poses a threat to the maple resource and, 
thus, the way of life of many of the residents of the north 
country. It does so in two major ways:
    First, because maple sap flow in trees occurs in response 
to free saw conditions, any change which occurs in the 
temperature patterns will affect the flow of sap from maple 
trees.
    Maple producers exploit the sap-flow phenomenon by drilling 
a small hole in the stems of trees collecting the sap which 
exudes and boiling it into maple syrup. The process is very 
long and labor intensive. It requires nearly 40 gallons of sap 
to be collected and boiled to produce one gallon of pure maple 
syrup.
    The maple sugaring season is very short, lasting only about 
4 to 6 weeks each season, but it is eagerly anticipated by 
thousands of maple producers in New England and New York and by 
the many visitors to sugarhouses each spring.
    Recent evidence has shown that global warming has shifted 
the timing and the duration of the maple sap flow season in the 
Northeast over the past 40 years. Although research is ongoing 
to project the impact of global warming over the next 50 years, 
we expect these trends to persist with continued warming.
    It is important to recognize that it is not necessary for 
the proper sap flow conditions to cease entirely but merely 
just to diminish to the point where maple syrup yields are not 
high enough to justify the cost of production. We do not know 
yet at what point the economics of maple production will fail, 
only that a continued reduction in seasonal length will have a 
negative impact.
    If global warming continues, the existence of the U.S. 
maple industry beyond the next 50 to 100 years is jeopardized.
    Maple producers tend to be careful stewards of the land. 
Sugaring is a proud tradition which is often passed from 
generation to generation. I am a native Vermonter. I learned 
about maple sugaring from my father, who learned from his 
father. I taught my daughter how to tap maple trees, how to 
boil sap into maple syrup, and I hope that some day she will be 
able to share that gift with her children and grandchildren.
    The second way in which global warming will impact the 
region is by affecting the maple resource itself. Several 
studies predict the widespread migration of trees species 
northward with the current maple, beech, birch forest being 
eventually supplanted by oak, hickory and pine. Maple in 
particular is predicted to be greatly reduced in importance if 
not largely extubated from much of New England.
    Recent and ongoing research suggests that this change may 
already be under way, with natural environmental stresses 
combined with acidic disposition hastening the change 
particularly in some of our high-elevation forests.
    The long-term effects of forest migration will be felt most 
heavily by the tourist industry of New England which generates 
billions of dollars in economic activity in this region 
annually. Without maple trees contributing their bright red and 
orange hues to our fall landscape, the foliage season will be 
much less attractive to tourists.
    The changes that we are seeing in our northern forest 
communities that I have mentioned are not merely academic what-
ifs. The change in timing and duration of the springtime maple 
season and the longer growing seasons have already been 
demonstrated. Research is beginning to point toward early signs 
of forest migration. Climate change predictions tell us that 
warming and the accompanying effects will continue for some 
time and perhaps accelerate over the next several decades.
    If we agree that the beautiful natural northern landscape 
that we have dominated by maples is valuable and the maple 
sugar industry and culture in New England is important and we 
wish to protect it and the way of lives of the people who live 
here, the time to act is now.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Dr. Perkins.
    [The statement of Mr. Perkins follows:]
    [GRAPHIC] [TIFF OMITTED] 57968A.003
    
    [GRAPHIC] [TIFF OMITTED] 57968A.004
    
    [GRAPHIC] [TIFF OMITTED] 57968A.005
    
    [GRAPHIC] [TIFF OMITTED] 57968A.006
    
    [GRAPHIC] [TIFF OMITTED] 57968A.007
    
    [GRAPHIC] [TIFF OMITTED] 57968A.008
    
    [GRAPHIC] [TIFF OMITTED] 57968A.009
    
    [GRAPHIC] [TIFF OMITTED] 57968A.010
    
    [GRAPHIC] [TIFF OMITTED] 57968A.011
    
    The Chairman.  Our next witness is Dr. Cameron Wake, who is 
a Research Associate Professor at the Climate Change Research 
Center at the University of New Hampshire. He was a co-lead 
author on two papers in a series of reports detailing past and 
future climate change in the Northeast as part of the Northeast 
Climate Impacts Assessment.
    Welcome, Doctor.

STATEMENT OF CAMERON WAKE, PH.D., RESEARCH ASSOCIATE PROFESSOR, 
    CLIMATE CHANGE RESEARCH CENTER AND DEPARTMENT OF EARTH 
             SCIENCES, UNIVERSITY OF NEW HAMPSHIRE

    Mr. Wake.  I would like to thank the chairman and the 
committee for the opportunity to offer testimony on the impact 
of global warming on New Hampshire and New England.
    The focus of this hearing on regional impacts of global 
climate change is timely and important. Changes in regional 
climate will affect many aspects of our lives and our 
communities, including our health and welfare, agriculture and 
natural ecosystems, water and air quality, and our economy.
    In addition, much of the adaptations to ongoing climate 
change and the mitigation of the future of climate change will 
ultimately be driven by actions at the local and regional 
scales. This regional focus is very important.
    Let me start by reiterating some of the statistics that 
Chairman Markey started with.
    We have been looking at climate change with a group of 
scientists across the Northeast. Perhaps the most striking 
statistic is that our winters have increased over the last 30 
years by 4.4 degrees Fahrenheit. To put this into perspective, 
that is the equivalent of taking a Boston wintertime climate 
and moving it south to Philadelphia. This is not climate change 
in the future. This has already happened, and we have seen the 
impacts.
    Over the last three decades, there has been a decrease in 
snowfall on the order of 10 to 30 inches across most of New 
England. A larger portion of our winter precipitation is 
falling as rain. New England stations have also experienced a 
decrease of 15 to 20 days over the entire winter on which there 
is snow on the ground.
    Extreme participation events have increased. We looked at 
all of the stations for which we could collect data, and we see 
an increase in one to four events over the course of the last 
50 years in extreme precipitation events, and this doesn't 
include the recent four big events that we have had in 2000 and 
2006 that was previously mentioned.
    The timing of high spring flow has changed over the last 35 
years with our spring runoff occurring much earlier. Ice thaw 
dates are occurring much earlier in the spring. Lilacs are 
blooming 4 to 5 days earlier, and sea levels continue to rise, 
and we see the effects of those in the most recent nor'easter 
with considerable flooding both in Massachusetts and New 
Hampshire and Maine. So our climate is changing. That is clear.
    We looked at climate variability in New Hampshire over the 
course of the last two decades in a study, and what we found 
was that the dazzling uncertainty of New England weather in 
fact is that we see significant differences in winter to 
winter. So we looked at a series of five what we call cold and 
snowy winters and a series of five and warm and slushy winters 
and we looked at the receipts from ticket sales at alpine areas 
and Nordic ski areas as well as snowmobile registration, and 
what we found was that warm slushy winters result in a decrease 
in revenue just from ticket sales and snowmobile sales of $13 
million. And this translates, when you think of it, all of the 
money these people spend elsewhere, this number can be 
multiplied two, three, four, five, six times. Warm slushy 
winters have a significant impact on the economy of the north 
country, and those are the types of winters that we expect are 
going to be coming in the future.
    How will climate change in the future? We looked at this as 
part of the Northeast Climate Impacts Assessment report; and, 
really, what the report shows is that the climate in the 
Northeast that our children and grandchildren inherit depends 
fundamentally on the decisions we make today and over the next 
few years how we in the Northeast and around the globe use and 
produce energy. The choice of emissions pathway we follow in 
the near future matter greatly and will serve to help preserve 
or fundamentally change the natural economic and cultural 
character of the Northeast.
    Let me jump to the chase here.
    We looked at two different emission scenarios, a high-
emission scenario and a low-emission scenario. So when we look 
at the high-emission scenarios in which we continue to rely 
upon fossil fuels as our main source of energy, what we see is 
that our winters could warm by 8 to 12 degrees Fahrenheit and 
our summers by 6 to 14 degrees Fahrenheit, essentially 
replacing New Hampshire's current climate with that of South 
Carolina, except without the water.
    On average, cities across the Northeast under the high-
emission scenario would experience more than 60 days of 
temperature over 90 degrees Fahrenheit, which will not be good 
for tourism in this part of the country. This includes 14 to 28 
days of temperatures above a hundred degrees Fahrenheit, 
something that we rarely experience today.
    Under the high-emission scenarios, as winter temperatures 
rise, more precipitation will fall as rain and less as snow. By 
the end of the century, the winter snow season will be cut in 
half, with only small areas in the mountains of New England 
experiencing more snow.
    The frequency of late summer and fall droughts is expected 
to increase significantly, to the point by the end of the 
century under the high-emission scenario where we would 
experience a drought every summer across much of the Northeast. 
The character of the seasons will also change significantly.
    So although some of these changes are now unavoidable, 
there is some warming that we are going to experience. The 
extent of change and the impact of these changes on the 
Northeast depends to a large degree on the emissions choices we 
in the Northeast and the world make today.
    The Chairman.  Thank you, Doctor, very much.
    [The statement of Mr. Wake follows:]
    [GRAPHIC] [TIFF OMITTED] 57968A.012
    
    [GRAPHIC] [TIFF OMITTED] 57968A.013
    
    [GRAPHIC] [TIFF OMITTED] 57968A.014
    
    [GRAPHIC] [TIFF OMITTED] 57968A.015
    
    [GRAPHIC] [TIFF OMITTED] 57968A.016
    
    [GRAPHIC] [TIFF OMITTED] 57968A.017
    
    [GRAPHIC] [TIFF OMITTED] 57968A.018
    
    The Chairman.  Our next witness is Mr. Bill Koury. He has 
served as President of the New Hampshire Wildlife Federation.

STATEMENT OF BILL KOURY, AVID SPORTSMAN AND FORMER PRESIDENT OF 
             THE NEW HAMPSHIRE WILDLIFE FEDERATION

    Mr. Koury.  Thank you. Mr. Markey and other select 
committee members, thank you for allowing me to speak to you 
today.
    I am here to tell you about the changes I have observed 
over the 40 years I have been hunting and fishing in the great 
State of New Hampshire. I am not a scientist, but from my 
subjective observation walking the woods and being on the 
rivers and lakes and ponds I feel many changes that are 
occurring that must affect fish, wildlife and people.
    Over recent years, I find that during the hunting season in 
November, I have been out on many more warm days, sometimes in 
the high 60s and low 70s. Instead of snow, I am more concerned 
with rain. Recently, a whole industry has risen for water-proof 
hunting gear.
    I have also been finding more ticks on me and my hunting 
buddies when those ticks should be resting for the winter; and 
while deer hunting, I have been swatting at mosquitoes when 
they, too, should have been knocked down with the first hard 
frost. To me this is a fairly recent phenomenon. Unfortunately, 
each of these insects now carries a potentially lethal danger 
to humans in New Hampshire, West Nile virus and Lyme disease.
    Although these right now are just annoyances to me, my 
major concerns are the dynamics behind these changes and the 
effects they will have on their environment, wildlife and 
people. The scientists have empirical data which they can use 
to make that determination. I know that I have seen moose beds 
with blood in them due to heavy infestations of moose ticks. 
When the environment is right for them, these ticks can collect 
by the thousands on a moose and place such a heavy blood drain 
to be fatal.
    I do know that northern wildlife can come under a lot of 
stress when we have longer and longer warm spells at a time 
when they have made necessary changes for cold weather. It is 
not uncommon these days to see white snowshoe hares running 
around in the snowless woods.
    I also see that many of the ponds I hunt near are not as 
regularly ice covered as they were years ago. In days past, I 
could walk across them during the hunting season but not as 
much any more.
    I know ice fishermen who tell me they get fewer days out 
due to unreliable ice conditions on the lakes. When the icing 
does come, it comes with winds and low temperatures in the 10s. 
So ice fishing as a sport along with small businesses that 
support it miss out.
    More streams are warming. The most popular fish in New 
Hampshire is the native brook trout. This fish does poorly in 
warming water, and many more of our streams seem to be warming 
in the spring. Aquatic insects, which make up much of the brook 
trout's diet, are also negatively affected by warmer water 
temperatures. No insects, no brook trouts.
    Back in the early to mid-'70s I, along with many others, 
noted we had some turkey vultures appearing around Ashland, New 
Hampshire, just a little south of Cannon Mountain. It was an 
attraction. These birds seldom ventured north of Connecticut. 
Now, while fishing or hunting, I regularly see turkey vultures 
over here along the New Hampshire/Canada border.
    The other day a friend helped a threatened wood turtle to 
cross the road in New Boston. This turtle was moving from a 
marsh to lay eggs in sandy soil. In the past, this friend has 
consistently recorded such wood turtle nesting activity in mid-
June.
    The American Woodcock season in New Hampshire is from 
October 1st through October 30th and has been for years. Over 
the last decade, New Hampshire hunters have missed out on 
quality Woodcock hunting as the southerly migration of this 
game bird has occurred much later, from very late October to 
mid-November. New Hampshire fish and game biologists agree that 
something has moved this bird's migration to a later date.
    We now have bluefish coming into New Hampshire in Maine 
waters. When I was a youngster, they didn't venture north of 
Cape Cod. It is something of a boon to anglers, but I am 
concerned about the secondary effects of their presence on 
species that developed without them and why we have the warmer 
water that they follow.
    To me, these are observations and obvious signs of a 
warming of New Hampshire's climate and currents. But I think 
the term ``global warming'' doesn't do justice to the changes 
that are occurring. Along with the warming trend, we have more 
weather extremes. A popular trout river, the Piscataquog in New 
Boston, has experienced two consecutive years of so-called 
hundred-year floods.
    We have had disastrous floods occur within 10 years of each 
other.
    When Congress set its mind to it, we cleaned up the multi-
colored textile rivers of the Nashua and the Merrimack, and I 
am looking forward to this select committee getting the ball 
rolling so that we can have actions similar to that to cut down 
on carbon emissions.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    [The statement of Mr. Koury follows:]
    [GRAPHIC] [TIFF OMITTED] 57968A.019
    
    [GRAPHIC] [TIFF OMITTED] 57968A.020
    
    The Chairman. Our final witness is Ms. Betsy Blaisdell, who 
is the Manager of the Timberland Environmental Stewardship 
Program. The Timberland Environmental Stewardship Program is a 
shining example of ways in which New Hampshire-based businesses 
are leading the charge in innovating in order to address global 
warming.

     STATEMENT OF BETSY BLAISDELL, MANAGER, ENVIRONMENTAL 
                STEWARDSHIP PROGRAM, TIMBERLAND

    Ms. Blaisdell. Thank you.
    Mr. Chairman and members of the committee, thank you for 
your leadership on behalf of the critical issue of global 
warming and for convening our first hearing here in New 
Hampshire. I am grateful for the invitation to testify on 
behalf of the 6,000 men and women who design, manufacture and 
sell premium Timberland footwear apparel and gear in 85 
countries around the world.
    After 30 years, our company has been driven by dual 
aspirations to exceed the expectations of consumers in the 
marketplace and to lead as accountable corporate citizens. The 
ethos of our business model compels investment and strategy to 
strengthen our communities, increase civic participation 
through community service and to preserve our planet's natural 
resources.
    Inspired by the wisdom of citizens and partners in this 
room, our approach is to lead as a values-based company, 
thoroughly integrate across our global business and throughout 
our supply chain from source to selling floor.
    Today, it is my privilege to provide some perspective on 
our commitment to fighting global warming with the hope that it 
may encourage your further engagement of the private sector as 
partner, thought leader, and accountable citizen.
    Timberland's passion for our planet is inspired by the 
natural beauty of this State, which you can't see today sadly, 
and our heritage is an outdoor brand. Quite simply, our gears 
are consumers gateway to the mountain trail, river rapid or 
coastal sail. We cherish these outdoor experiences and see 
global warming as an alarming threat to our way of life, our 
global enterprise and to the health of our employees and 
consumers.
    The cost to our business includes spikes and dips in 
product sales, rising insurance and health care expenses and 
costly retrofits for adapting our facilities to extreme weather 
events. Of greatest concern is damage to our natural areas, 
where our consumers recreate and many New Hampshire citizens 
find jobs.
    As a business that uses energy to produce more than 30 
million pairs of shoes as well as power nearly 300 facilities, 
we contribute to this threat, yet we believe that the private 
sector can be a market for us for sustainability and 
environmental innovation as well as a source for greater 
consumer awareness on global warming.
    Like many others in industry, Bank of America, Toyota, 
Aveda, GE, Stonyfield Yogurt here in New Hampshire, HSBC, we 
are fully dedicated to play our part. Leveraging our assets as 
a business and as a community of committed citizens, Timberland 
will achieve carbon neutrality by 2010 for our facilities and 
for employee travel through a clear set of measurable strategic 
initiatives. I will just list a couple of these.
    One, we will be reducing our energy demands and investing 
in renewable energy with a goal of achieving nearly 50 percent 
reduction in our corporate greenhouse gas emissions. We will be 
increasing the use of sustainable materials and improving 
manufacturing and product take-back programs to develop 
footwear and apparel that have a smaller carbon footprint, a 
couple of examples I have brought with me.
    We will be producing industry leading packaging and 
labeling such as eco labels such as the corporate nutritional 
labels that we have on our footwear boxes that talk about our 
corporate, social and environmental footprint and continuing to 
provide consumers with accurate and transparent data on our 
company's environmental footprint. Our intent is to promote 
environmental activism through consumer choice.
    We will be partnering with other brands and industry 
associations to develop tools and resources that will help our 
supply chain partners improve their environmental performance 
and will continue to engage thousands of employees and 
consumers in environmental service worldwide to plant trees and 
protect our wild spaces.
    Fortunately, we are not alone in these efforts. As I 
mentioned, our industry has been aggressively leading change 
with launch of environmentally conscious product lines and 
hosts of cross-brand working groups aimed at solving 
environmental challenges in the supply chain.
    This commitment is driven by growing consumer demand for 
sustainable products made by environmentally responsible 
companies. Locally, we are grateful to Clean Up Our Planet and 
the New Hampshire Sustainable Energy Association, who support 
businesses, campuses and communities in their efforts to combat 
global warming. Over the past 5 years, these partners have 
helped reduce our region's carbon emissions by over a million 
tons annually.
    We are humbled and encouraged by these voluntary efforts, 
but the scale of the challenge is too great and requires a 
greater level of leadership, investment and accountability. We 
join many in our industry and sector in respectfully asking the 
President and Congress to create a comprehensive national 
framework to address global warming, one with benchmarks, 
transparency and aggressive evaluation of impact.
    For your consideration, we recommend the following central 
tenets for a national strategy: one, legislation for economy 
wide emission reductions; two, aggressive R&D for low-carbon 
technology; three, Federal planning for global warming impacts 
and response; four, a strategy to mobilize support and re-
engage international partners; five, reallocation of budget 
priorities; and six, programs to enable and encourage citizens 
to build efficiency and conservation in their homes and 
communities.
    Timberland is honored by the opportunity to raise our 
collective voice in unison with those in the room who have been 
leading in this effort for decades, and we want to thank you 
for the opportunity to speak with you today.
    Thank you.
    [The statement of Ms. Blaisdell follows:]
    [GRAPHIC] [TIFF OMITTED] 57968A.021
    
    [GRAPHIC] [TIFF OMITTED] 57968A.022
    
    [GRAPHIC] [TIFF OMITTED] 57968A.023
    
    The Chairman. Now we will turn to the questions for the 
panel. Let me begin with you, Dr. Wake.
    If I may, you mentioned, Dr. Wake, that you have identified 
an intensification in the rise in temperatures here in New 
England over the last 38 years, this 4.4 degree Fahrenheit 
increase. Mr. Larson and I, we just returned from Greenland. 
They are finding the same thing. The computer models have to be 
continually updated. The reality is outstripping what past 
experience was demonstrating to be the pace of the advance of 
this problem. Could you talk for a second about how quickly 
this is moving and what it might lead you to conclude in terms 
of predictions about the future?
    Mr. Wake. I would like to, I think, reiterate something 
that you have mentioned. On the broader side of the community, 
as we look back, the predictions that we developed over the 
course of the last decade, things are happening much more 
rapidly than we thought they would. And if you look back at 
those predictions, many of them were published in scientific 
papers. Things are happening much faster. Our predictions of 
figures were too low.
    In terms of the Northeast, this was a real shocking 
development. When I first found out, I have got to tell you me 
and my graduate students turned over our numbers many times, 
because I did not believe it. But what is happening in 
Greenland and what is happening across the Northeast I think is 
the same thing.
    As we have had warmer winter temperatures, temperatures 
driven by an increase in greenhouse gas in the atmosphere, that 
is trapping more heat at the surface and melting the snow more 
rapidly. When that snow melts, that ground becomes darker, 
which melts more snow, which allows more ground to be open. So 
this change in snow cover we think is actually driving this 
rapid increase in temperature; and as we look in the future, I 
expect this positive feedback will continue until we have lost 
the snow in the Northeast. I see our winter temperatures 
increase more rapidly.
    The Chairman.  So this positive feedback loop that we are 
talking about is a snowball effect in reverse. It accelerates 
the pace at which the snow melts, that the whole area becomes 
warmer because there is more exposed ground to absorb the heat 
and so, as well as being attacked from above, it is also now 
coming from below the snow, from the ice in a way that 
otherwise would not have been able to happen.
    Mr. Wake. This is a fundamental characteristic of the 
earth's climate system, is that we have these external changes 
that cause the system to change. We have these feedbacks within 
the system itself. So positive feedbacks cause the system to 
change even more rapidly, and that snow cover change that we 
have tracked in the Northeast is actually occurring across much 
of North America. So we are seeing that snow cover retreat more 
dramatically.
    The Chairman.  Well, they were talking about this whole 
phenomenon of the feedback effect up in Greenland as well, the 
very same phenomenon which accelerates, intensifies the pace, 
and there it is really at large. Because Mr. Larson and I were 
standing on top of an ice cap that was seven-tenths of a mile 
high, and across much of Greenland it is 1.7 miles high. In 
other words, Mr. Larson and I were standing on an ice cap about 
the height of this mountain, about 4,000 feet; and it is 
melting and melting rapidly.
    But that is not just something that is this size, but you 
have to think about it all across Greenland in terms of 
ultimately the consequences. That is where people start to talk 
about a rise of 10 to 20 feet in sea level.
    If this positive feedback loop continues to accelerate at 
the rate at which it has, then there are really long-term 
catastrophic consequences for the planet.
    Let me turn and recognize the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    One of the problems that we have in Congress is to go 
through the mass of figures that are presented to us not only 
on this issue but on most of the other issues that we have to 
make decisions on as representatives of the people; and in this 
area, there has certainly been a mass of figures, and I would 
like to try to cut through some of them.
    Dr. Wake, in your testimony you consistently used 1970 as 
your baseline for statistics such as the ice outdate in the 
lakes. Considering that 1970 was the end of a documented 
cooling period, how would your numbers be changed if you use 
1930 as the baseline?
    Mr. Wake.  If we use 1930 as a baseline, what you would 
actually see is there would be two different trends, as you 
mentioned. So from about 1940 to 1970, there was actually a 
global cooling trend, and we also see that trend across much of 
the Northeast. It has really been since 1970 that we have seen 
this dramatic rise in temperature that the Intergovernmental 
Panel on Climate Change has identified as a human influence on 
our climate. So when we look at the global figures, we see 
there really has been a shift right around 1970.
    We actually did do a detailed sensitivity analysis that is 
in one of the papers I provided you, and we go back to 1965 and 
up to 1975.
    So it is not our choice of one year that makes a difference 
in the trend. It is actually very----
    Mr. Sensenbrenner. But you concede the point that what you 
have done with your figures is basically used about the time 
when the cooling trend ended and the temperature bottomed and 
started climbing up; is that correct?
    Mr. Wake. Absolutely. The period which we know that has 
that human fingerprint of climate change.
    Mr. Sensenbrenner. There was a warming trend that was 
documented between 1920 and 1940, and that was before all of 
the CO<INF>2</INF> emissions caused by the post-World War II 
economic boom occurred. How do you account for the fact that 
there was rapid warming between 1920 and 1940 during half of 
which there was a worldwide depression and the economy slowed 
down?
    Mr. Wake. I think we have to think very carefully about the 
climate, and we have to think about the entire climate system. 
So we know there are lots of reasons that climate changes. It 
is something I tell my class all the time, is the climate 
changes, it always has, and it always will. What we know is 
that humans are causing that change today.
    So, in the past, we know that climate has changed because 
of changes in solar output, changes in volcanic eruptions, 
changes in orbital parameters. Humans are not the only thing 
driving the climate change.
    So in the early part of the century, we know that there was 
an increase in solar output that actually caused warming; and 
those models that we have, the GCM models that are detailed in 
the Intergovernmental Panel on Climate Change, have detailed 
that warming clearly.
    Mr. Sensenbrenner. I am happy that you stated that. Because 
a lot of the chatter that is going around both political 
circles and other circles is that climate change is almost 
exclusively caused by human activity. And there is a natural 
climatic cycle of warming and cooling trends which I think you 
stated in your testimony and in the answer to my questions.
    I guess, you know, one of our problems as Representatives 
is to try to figure out what to do where we can make a 
difference in the climate without wrecking the economy. And the 
second part is probably the most difficult way of doing it, 
given some of the testimony that we heard almost 10 years ago 
from the Energy Information Administration which was a part of 
the Clinton administration.
    Now I have one other observation. We have got a similar 
climate in Wisconsin as you do in New Hampshire. We kind of 
think New Hampshire is the Wisconsin of the Northeast. My 
State's Department of Tourism stated that the winter months 
account for only 18 percent of annual travel and tourism 
expenditures, which are significantly less than the other three 
seasons--21 percent for spring, 24 percent for summer and 37 
percent for fall. And our leaves are beautiful in Wisconsin, 
too. Some of you folks ought to come and look at it, rather 
than going in the other direction.
    If that is the case, you know, what is so wrong about 
having a shorter winter season when people don't like to drive 
on icy roads and perhaps a longer spring and fall season when 
people want to get out of the house and get out of doors and to 
enjoy the outdoors a little more?
    Mr. Wake. I think your question is a good one. It goes 
right to the heart of the matter.
    What is at stake here is the very nature of what it means 
to live and work and be from New Hampshire and New England. It 
is central about our quality of life.
    We have been brought up in this region to experience the 
seasons, and you can love them or you can hate them, but it is 
an essential aspect of the life that we have here, and our 
culture and our economy are grounded in it. So a much shorter 
winter will have significant implications not only for our 
economy but also for our quality of life and for our cultural 
heritage from this region.
    One other point I would like to make just to clarify the 
warming we have seen over the last 30 years cannot be explained 
by any natural cycle in our climate system. It has the distinct 
fingerprint of anthropogenic warming caused by human emissions 
of greenhouse gasses.
    The Chairman. The gentleman's time has expired.
    The gentleman from Connecticut, Mr. Larson.
    Mr. Larson. Continuing on that same line of questioning, 
Doctor, if we could, because I think it is important because 
the question remains, and I think Mr. Sensenbrenner rightly 
points this out, so what have human beings contributed in terms 
of this global warming? And we are looking at specific points 
in history. How long does the accumulation of carbon stay 
within the atmosphere and in the environment, and what is the 
expediential ramifications of the tonnage, and can you explain 
how much exists and what kind of impact that has?
    Mr. Wake. Well, the carbon dioxide that we emitted as we 
drove up to Cannon Mountain today is going to last in the 
atmosphere on average for about a hundred years. Some of those 
molecules will be in the atmosphere for about as long as 500 
years. So what that means is, even if we stop emitting carbon 
dioxide globally today, we would continue to see a warming over 
the course of the next one to two decades because of the 
lifetime of those greenhouse gasses in the atmosphere and 
because of the thermal inertia in our climate system.
    Mr. Larson. Isn't the urgency therefore then with the 
nations like India and China with enormous populations and on 
the verge of industrial takeoff whose main source of power is 
coal that, experientially, this amount of carbon within the 
atmosphere could be a near calamity? Is that what scientists 
believe or are we just postulating?
    Mr. Wake. I think if we continue on a business-as-usual 
scenario, much of the scientific community agrees that we are 
headed toward catastrophic climate change or, in the words of 
the ITCC, dangerous anthropogenic interference.
    Mr. Larson. Could you explain anthropogenic?
    Mr. Wake. Human derived.
    So we are on that pathway now. So if we continue on this 
business-as-usual, we might expect by the end of the century we 
will see carbon dioxide levels in the atmosphere on the order 
of 600, 700, 800, 900 parts per million by volume, which is two 
to three times above natural background levels which in fact 
would lead to dangerous anthropogenic interference of the 
climate system and, in particular to the comments of Chairman 
Markey, the potential meltdown of the Greenland and west 
Antarctic ice sheets.
    Mr. Larson. Shifting quickly from Greenland and the 
scientific results and then moving to the anecdotal evidence 
that we heard from the Inuit Indians who were the natives that 
were there on the island and to look at the rapid pace at which 
glaciers are melting and how they have receded over time and 
just in the last several years, is this the same kind of 
experience that you are seeing, Mr. Koury, here in New 
Hampshire?
    Mr. Koury. The experience that I have had is that the 
recent years--and I say recent, probably from 1980s on--are 
things that you are able to observe. What I have made are 
observations.
    Mr. Larson. Mr. Sensenbrenner was saying what is wrong with 
having a warmer climate up here. You know, South Carolina is 
not a bad State; and there are many in my State that say, hey, 
that is not a bad thing. But when it is accompanied by ticks 
and mosquitoes and the brook trout are no longer here, what 
kind of quality of life do you have and how can you go out and 
enjoy those areas that you are accustomed to?
    Ms. Chamberlin. It goes right to the quality of life.
    When the issues become that the trends you see, that the 
things that annoy you the most are growing, the things that 
give you the most pleasure are going away, it is a trend that I 
have seen over the past 20 years or so, and it does have an 
effect, and I know that folks are moving and changing their 
habits because of it. Friends of mine are now hunting up in 
Canada and New Brunswick to get the more traditional experience 
of a snow season. So it does have that effect.
    Mr. Larson. Thank you, sir.
    The Chairman. The Chair intends on having two rounds of 
questions from the panel, if that is of any help to the 
members.
    Now let me turn and recognize the gentleman from Oregon, 
Mr. Walden.
    Mr. Walden. As you see, we are conserving on microphones 
today. As a radio guy, that is always difficult for me.
    I fully appreciate all of your testimony. It has been most 
helpful as we try to find solutions to this issue. I am not 
here to dispute whether the planet is getting warmer. I happen 
to believe it is, and we have had thermometers for 300 years. I 
think we can measure these things. What I want to figure out is 
what can we do about it, what the costs are to doing something 
about it and what is reasonable and effective.
    One of the issues that I have--perhaps we can start with 
Ms. Chamberlin. Your State has implemented a renewable 
portfolio standard. I am one of the co-Chairs of the Renewable 
Energy Caucus. My district is home to an enormous amount of 
wind energy, hydro/geothermal and we are actually developing a 
solar site. I am curious about your renewable energy portfolio, 
and 23 other States have passed them, I understand.
    The Federal Government is being asked to put one in place. 
Would you want a national portfolio standard that perhaps 
preempted yours?
    Ms. Chamberlin. Thank you very much for the question. I 
have some concerns, and I would like to express them to this 
committee in that regard.
    The negotiation of the RPS was--well, it has actually been 
an ongoing 6-year negotiation, but since Governor Lynch has 
been in place, it has been about a 2-and-a-half year 
negotiation. And it really did involve looking at who was going 
to receive the benefits and the incentives from an RPS, and it 
was important to include our historic renewable resources of 
virgin wood and hydro but also important to----
    Mr. Walden. Did you set a date on a hydro or was it 
whatever was in place was included in that RPS?
    Ms. Chamberlin. Not everything is included. It is based on 
certain size and hydro. But there is potential for new hydro to 
come in as a new renewable.
    Mr. Walden. Would new low-head hydro count?
    Ms. Chamberlin. It could count.
    Mr. Walden. But some of the hydro that is there today, does 
it count?
    Ms. Chamberlin. Some of the hydro, it could benefit. We 
were very sensitive to scale when we looked at every source of 
renewables, and some of the larger hydro would not be eligible.
    Mr. Walden. But the long and the short of it is you would 
not support a Federal preemption of what you worked out here.
    Ms. Chamberlin. I think that is what--in general, the 
statement I would like to make.
    As we worked on our RPS, as we worked with the RGGI States, 
as we have worked on the climate change registry, we think that 
there is a lot of experience that the States have. We really 
welcome the leadership of the Federal Government on this issue 
and our partnership, but we do feel we have some resources to 
draw on and some expertise.
    Mr. Walden. Since I only get 5 minutes, I am trying----
    Ms. Chamberlin. I am trying to remember that, too.
    Mr. Walden. This region of the United States relies a lot 
on home heating oil to heat in the winter. I am wondering under 
a cap and trade system where your State might come down in 
terms of trying to reduce the reliance on hydrocarbons for 
heating, especially fuel oil for heating, which has to be a 
large emitter of greenhouse gasses.
    Ms. Chamberlin. Well, I don't think that I have an answer 
on that. What we have found is, as you said, that home heating 
is going to be a substantial issue, as is the transportation 
sector. And the Governor's approach on these things is to look 
very carefully at the economic impacts and what the trade and 
benefit cost and benefit is over time. And when we have to make 
decisions that are going to----
    Mr. Walden. These are the issues that we ran into in Europe 
on a cap and trade system. You could be talking about much 
higher energy bills for individual consumers as we shift out of 
certain energy production to others that have far less 
greenhouse gas emitted.
    Ms. Chamberlin. I think we have to take the steps we can to 
address the issues, and we have to have measurable results. I 
think that would be an important part.
    Mr. Walden. I want to go to Ms. Blaisdell.
    In terms of Timberland's involvement--and I commend you for 
your company's involvement in this important environmental 
issue--is your company trading on the carbon exchange in 
Chicago?
    Ms. Blaisdell. No, we are not trading on the Chicago 
Climate Exchange. We are retiring any benefits we create 
through our own renewable energy systems.
    Mr. Walden. Do you do any manufacturing offshore?
    Ms. Blaisdell. We do.
    Mr. Walden. Do you do it in places like China?
    Ms. Blaisdell. We do.
    Mr. Walden. How do you get containment of carbon emissions 
from production of electricity in China? I am curious, because 
we are trying to figure out how to deal with China, India, 
other countries.
    Ms. Blaisdell. Yeah. Certainly, what we are looking to do 
is create a model factory with the one factory that we do own 
in the Dominican Republic. So we have been installing renewable 
energy systems there, putting environmental management system 
in place to understand what the true costs and benefits are 
associated with making aggressive reductions in greenhouse gas 
emissions at a manufacturing setting. At the same time, 
partnering with other brands to understand what we can do to 
incentivize our factory partners in China, southeast Asia, to 
help reduce their carbon emissions.
    We think there is a great opportunity to help invest in 
renewable energy systems onsite for those manufacturing 
facilities for an increase in power reliability.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New Hampshire, Mr. 
Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    Ms. Chamberlin, in the absence of meaningful action by the 
Federal Government, the States have really taken the lead on 
the issues we are talking about today. New Hampshire has joined 
34 other States, two tribes and two Canadian provinces 
endorsing the Climate Registry. The Governor has announced 
participation of a renewable portfolio standard with 23 other 
States, and New Hampshire is also participating in RGGI.
    Why is it important for the Federal Government to work with 
the States and what are the potential consequences for New 
Hampshire and New England if the Federal Government does not 
act and instead forces individual States to create a patchwork 
of different rules regulating greenhouse gasses?
    Ms. Chamberlin. Let me start with an example I mentioned 
before.
    I think the transportation sector is one where clearly the 
Federal Government has an important role in taking leadership 
on this issue. That is one that we look forward to input but 
really hope that there can be leadership from the Federal 
Government.
    On RGGI, we are very proud of the work that we have 
accomplished, and we plan to bring RGGI before the legislature 
in New Hampshire. Because we can't implement it by executive 
order, so that will require that kind of bipartisan cooperation 
and consensus building that I talked about earlier. But, as a 
cap and trade plan, that would certainly benefit from a Federal 
program.
    When you get into dealing with the technical issues like 
leakage, which there are people here much more qualified to 
talk about than I can, a Federal program will create 
consistency and fairness across the country. We hope that it 
won't disadvantage the work that the early States have already 
done, but we are confident that it would improve a cap and 
trade program that we intend to push forward on a regional 
basis in any case.
    Mr. Hodes. So you favor Federal action?
    Ms. Chamberlin. We think Federal action can be an important 
part of cap and trade. Absolutely.
    Mr. Hodes. Ms. Blaisdell, my good friend from Wisconsin 
expressed the concern that we needed to deal with the global 
climate change issues without wrecking our economy. Has going 
green been bad for Timberland business?
    Ms. Blaisdell. No. In fact, I would say it has offered 
several advantages to our business, and I believe that this is 
going to be a basis for competition in the future, developing 
green products and green technologies.
    We have also seen the savings from things like improving 
the energy efficiency of our building and investing in on-site 
renewable energy. For example, our 400kW solar ray in 
California is providing us with tremendous benefits currently 
right now.
    Mr. Hodes. In analyzing the risk and rewards from your 
program, did folks look at payback time for the technology as 
well as things like the good will generated for your company by 
going green?
    Ms. Blaisdell. Yeah. I still have a CFO that I have to 
report in to, and so I do have to do traditional capital 
expenditure reports and show competitive payback times. Harder 
to measure what the additional benefits are, but we found by 
taking a leap of faith that the payback has been much better 
than we ever expected from traditional measurements.
    Mr. Hodes. Thank you. I yield back.
    The Chairman. The Chair recognizes Congresswoman Shea-
Porter.
    Ms. Shea Porter. Thank you, Mr. Chairman.
    I, too, have been concerned about a lot of the phrases 
about wrecking our economy if we make changes, and so it is 
very heartening to hear what you have to say about your own 
company.
    First, I want to speak to Ms. Chamberlin about this. Can 
you please tell us, without putting you too much on the spot, 
what the floods have cost New Hampshire's economy? What do you 
think we have lost because of these floods over the past couple 
of years, which have been absolutely devastating?
    Ms. Chamberlin. I think the latest figure is approximately 
$35 million just from three floods. I think there are costs 
associated with that that aren't in that figure. Certainly 
there are, but that would be direct costs to bridges, roads, 
and private property.
    And I really want to remind people of the costs of 
displacement that people have experienced from losing their 
homes. We are going to be looking at, you know, the appropriate 
location of some of these communities in our flood plane. I 
think every town and city in New Hampshire is planning 
differently because of these floods and looking ahead 
differently; and, sadly, we have lost life in some of these 
floods.
    So it is really--it is really the cost that is hard to 
measure.
    Ms. Shea-Porter. You haven't even talked about the tourism, 
the impact on tourism. Do you have any idea on what we have 
lost on that?
    Ms. Chamberlin. Because of global warming?
    Ms. Shea-Porter. Because of the flooding and just rainy 
weather, the lack of snow or for our ski industry.
    Ms. Chamberlin. What I can tell you, the good news, this 
was the first good Memorial Day we have had in 5 days. We are 
very excited about that. I don't know what to attribute it to. 
And certainly anytime that there is an increase in rain you 
have less tourism, and that is going to impact our economy; 
and, as you know, tourism is a significant part of our economy 
here in New Hampshire.
    Ms. Shea-Porter. So rain instead of snow is very bad news 
for people, small businesses; and, of course, New Hampshire is 
built with small business, and we need that.
    Thank you.
    Ms. Chamberlin. I think the snowmobile registration 
decreased by about 14 percent in the off-years, and that is a 
significant loss of revenue to the State.
    Ms. Shea-Porter. And the restaurants and all of those who 
rely on people coming into our State.
    Mr. Koury, I wanted to talk to you for a moment, please.
    When I was growing up, I remember hugging that wood stove, 
wishing it could get a little warmer. I am sure that the 
testimony you just gave us tells me that we don't want it to be 
warmer.
    New Hampshire gets this on a bipartisan basis, Republicans 
and Democrats. I wanted to ask you, what kind of support do you 
have in your organization among your fellow sportsmen and 
women? Do they acknowledge this? Are they concerned about it? 
And are they willing to make some sacrifices and conserve?
    Mr. Koury. I think the folks I know, the hunting folks and 
the hunting community and angling community, somewhat is 
divided. I think they all agree on the effects that we have 
seen and the trends that we have seen.
    The majority of the people that I interact with and I know 
understand a connection between carbon emissions, the 
scientific information that we have been receiving and the 
impacts. There are a number of hunters and anglers who don't 
see that connection or don't understand or agree on that 
connection.
    But I think it is difficult for me to say. I am not 
speaking for my group or my majority or anything of that 
nature. But the friends that I know, probably the majority of 
the friends that I know, do support the idea of getting action 
to reduce emissions, carbon emissions, because they feel there 
is a direct connection.
    Ms. Shea-Porter. And they have noticed it?
    Mr. Koury. Yes. Through the same friends that I have been 
seeing, been relating to you, I think that is a common trend. I 
think you find most hunters would agree that these trends are 
what they are seeing.
    The Chairman. The gentlelady's time has expired.
    Now we will turn to the second round of questions. The 
Chair will recognize himself.
    Let me come back to you again, Dr. Wake.
    You made the stunning statement that Boston now has weather 
that Philadelphia had in 1970; and if it continues at the pace 
at which it has been in recent years, then we could consider--
we could continue to move right down the eastern seaboard in 
terms of the weather.
    What is the time period that you have identified as that 
where there has been an acceleration which has occurred? In 
Greenland, they are talking to us really in terms of just the 
last 6 months where this cycle has begun to spin much more 
rapidly. What is the time that you have identified?
    Mr. Wake. The data that we looked at has only been compiled 
by the National Climatic Data Center up to 2002. So when we 
look at long-term trends across the century we really see this 
distinct change around 1970.
    That said, we now know that certainly the winter of 2006 
and the first half of this winter were very unique in the fact 
we had no snow and really warm temperatures and a decrease in 
snowmobile registrations.
    I wanted to tell just one brief story. I have a wood lot 40 
miles that direction from here. And this winter was really bad 
because of the forest industry, not because of any rapid 
species change, but because the roads haven't been frozen. And 
when the roads aren't frozen in the local towns, the logging 
trucks can't get in.
    So when I have been around talking to a lot of people, what 
they tell me, I say winter is warming and all of the loggers 
go, yeah, we can't get into the forest to harvest their wood.
    So while we haven't done a specific analysis on the recent 
years, it certainly appears that our winters have warmed even 
more over the last 3 or 4 years, and we will include that in 
our analysis as soon as that quality assured data becomes 
available.
    The Chairman. Actually, Mr. Larson and I experienced the 
same thing in Greenland, where an entire industry, which is 
this dogsled industry across the frozen ocean that could take 
tourists from one part of Greenland to another, well, the ocean 
doesn't freeze anymore. So this entire industry has gone out of 
business. Because, unbelievably, the oceans in Greenland don't 
freeze.
    And, in fact, Mr. Larson and I and Speaker Pelosi--Speaker 
Pelosi, she was the highest-ranking American official to ever 
reach Greenland when we went there this past weekend. Ever. We 
were on a boat, went out into the ocean where we saw flotillas 
of icebergs, 400, 600 feet high, that were just breaking off of 
the glacier and now floating, dozens of them. Which, again, is 
unprecedented in their experience; and it is accelerating. So 
this is a very significant phenomenon.
    Again, like you are saying, it affects the economy up here 
in New Hampshire as well. Because they just don't have the 
conditions that historically made it possible for them to be 
able to conduct their profession.
    Could you speak briefly about this issue of where New 
Hampshire saw hundred-year flooding for the third time in 3 
years in this State and what that means and where do you think 
that is all coming from?
    Mr. Wake. I will try to.
    What we have seen is this dramatic increase in extreme 
precipitation events just in the last 2 years. In fact, it is 
common now for our TV meteorologists to say we are going to 
have a rainstorm with 5 inches of rain without having the 
warning bells going on. So I would say over the course of the 
last 2 years our precipitation regimes have changed 
dramatically. When we get rain, it comes in deluges.
    Can I link that to global warming? It is a tough call.
    But what we are seeing is a continuation of a trend where 
we get more of our precipitation in fewer events. At the same 
time we are developing our ecosystems, we are putting down a 
lot of pavement, and that is increasing the rate at that time 
which that water runs off. So it is a perfect storm of more 
rain and fewer events and fewer developments that is leading to 
an increase in flooding.
    The Chairman. Thank you.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Let me say that, in Wisconsin, we value 
the seasons, too. We like to spend time outdoors here in all 
four seasons. Most people in Wisconsin appreciate the climate 
that we have. They appreciate the recreational opportunities 
that we have outdoors, and I don't think there is that much 
difference between Wisconsinites and New Hampshirites.
    The one thing I think we ought to look at, however, is 
actually what the trends are relative to the tourism industry. 
Because the tourism industry is a reflection on how people like 
to enjoy the outdoors. And, granted, they may come from parts 
other than where we live; and that is why I mentioned the 
statistics that the Wisconsin Department of Tourism has 
compiled where the most popular tourist season in Wisconsin is 
the fall and the least popular season is the winter.
    Now we do have this thing here in Wisconsin. The mountains 
aren't quite as good.
    I am wondering, Ms. Chamberlin, what kind of statistics you 
have relative to the economic trends in the ski industry in New 
Hampshire over the last 30 to 35 years?
    Ms. Chamberlin. I can't give you the data off the top of my 
head, but I will be happy to try to find it for you in terms of 
the growth of the industry.
    Mr. Sensenbrenner. I am looking at that because, as the 
climate has warmed since 1970, one would think that the ski 
industry would have declined rather than grown.
    Ms. Chamberlin. I think one comment I would have is that 
our most successful ski mountains make a lot of snow, and that 
continues to be an important part of maintaining the 
recreational base.
    Mr. Sensenbrenner. It has got to be cold enough.
    Ms. Chamberlin. It does. Because, according to Dr. Wake's 
report, a lot of the warming we are seeing actually takes place 
at night. You have probably wanted to elaborate on this, but 
there is a difference in the warming temperatures in the day 
and the night and you make snow generally at night. So that is 
a concern that you don't even have the degree days, as they 
call it, to make snow at night, and that can affect the ability 
of the ski area to compete. And it also requires a large 
withdrawal of water. So the more water that you take out, the 
more higher your costs are that you have to bear in the ski 
industry.
    Mr. Sensenbrenner. As national legislators, we have to look 
for national solutions. The last winter it was warmer than 
usual on both coasts and colder than usual in the central part 
of the country.
    I live on a lake. To get to my house, I have to go down a 
road of four rows of maple trees that were planted by my great-
grandfather over 100 years ago. It is just beautiful there 
during the fall, as it is up here. But I kept statistics on the 
ice. And in the last couple of years, we have had ice cover 
over the lake that I live on that lasts a lot longer than what 
normally it does. Three months ago was the first time I can 
remember where I couldn't get into my house because there was 
so much snow in front of the front door that I had to get in 
through the garage.
    So given the fact that climate change affects different 
parts of the country in different ways, how do you suggest that 
we craft national legislation that takes into account of this?
    Ms. Chamberlin.  I think you are going to have to bring 
your regions to the table and really look at the science and 
the facts and get the input from your region about whether you 
are seeing impacts, whether the economy is experiencing 
impacts. And all legislation, whether it is Statewide or 
regional or even, you know, international, negotiations are 
acts of compromise. And I am afraid to suggest it so publicly, 
but I think that is what it is going to take. It is not an easy 
task, but it is going to require the science as a base and 
working with all of your colleagues to achieve some reasonable 
balance.
    The Chairman.  The gentleman's time has expired.
    The Chair recognizes the gentleman from Connecticut, Mr. 
Larson.
    Mr. Larson.  Thank you, Mr. Chairman.
    One of the questions that I have and want to follow up 
with, especially with so many young people here from New 
Hampshire, to get 164 communities to agree, how did that 
process evolve and what were the mechanics behind this obvious 
grassroots movement?
    Ms. Chamberlin.  The mechanics to my knowledge were a 
growing understanding in communities of the climate change 
impacts in New Hampshire. That has been supported by tremendous 
educational effort on the part of our nonprofit community, and 
they undertook this initiative based on a similar initiative 
that was undertaken in the early 1980s on the acid rain issues.
    Mr. Larson.  Was there any specific driving organization?
    Ms. Chamberlin.  The Carbon Coalition and Clean Air-Cool 
Planet were both instrumental in achieving in getting this 
resolution and organizing their communities to put the 
resolution on their town warrants.
    Mr. Larson.  Have other States begun to follow your model?
    Ms. Chamberlin.  I am not aware of other States following 
the model. I did introduce a resolution in my town, and I think 
it was interesting to see the response because it did--when you 
talk to people about the economic impacts of global warming on 
New Hampshire, they are very willing to roll up their sleeves 
and act locally. And I think the most significant impact, 
besides the recommendation to you and as our Federal 
representatives and legislators, is a willingness to act 
locally and start up their local energy committees and see what 
they can do to reduce energy----
    Mr. Larson.  Because of this grassroots movement, do you 
thing the people therefore will be more inclined if they had to 
sacrifice on the questions that have been asked today, whether 
it is cap and trade or whether it was a carbon tax, a 
polluter's tax? Do you think that people in New Hampshire would 
be, therefore, more prepared or more understanding? And, if so, 
should we not be doing this all over the country?
    Ms. Chamberlin.  I think there is an understanding that 
individual behavior can make a difference and that people in 
New Hampshire are willing to undertake that.
    You know, we are known in New Hampshire for taking some 
modest steps; and I would think that that approach to really 
using your data, working with all your regions and stakeholders 
is going to be critical nationally in the same way it has been 
critical locally and Statewide.
    Mr. Larson.  Dr. Perkins, you said something earlier that 
caught my attention with respect to forest migration, 
particularly as it relates to New England. I never viewed the 
oak or the hickory as an invasive species. What is accounting 
for this and what are the trends that you are seeing? I know 
specifically, as you are looking at the maple sugar industry, 
what is forest migration all about? Could you further enlighten 
us?
    Mr. Perkins.  The distribution of plants is based on a lot 
of factors, but primarily temperature and precipitation are the 
main components that determine where plant species will be 
found.
    As the climate warms, then there will be changes in the 
competitiveness of various species; and oaks, hickories and 
pines are found more commonly in areas where it is warmer. 
Maples, although they will grow, tend not to be able to compete 
as well with those species. So they will, in effect, move 
northward or establish themselves and grow better in Canada 
then they will here.
    There will be some efforts, most likely by humans, to 
change those patterns somewhat, but it is a very difficult 
thing to change.
    Mr. Larson.  New Hampshire has certainly pointed to a new 
direction in the grassroots level that the Nation should be 
taking, and I don't think it is coincidental that we have two 
new Members to Congress who also speak so ardently of the new 
direction necessitated for this country and exemplified by what 
you are doing here in New Hampshire.
    I yield back.
    The Chairman.  The Chair recognizes the gentleman from 
Oregon, Mr. Walden.
    Mr. Walden.  Thank you very much, Mr. Chairman; and I 
appreciate that.
    Dr. Perkins, do you specialize in forestry?
    Mr. Perkins.  I am a forest physiological ecologist.
    Mr. Walden.  Can you tell us what is causing the dead 
needles out here?
    Mr. Perkins.  Dead needles in high elevation forests are 
caused by winter injury, and there are a number of different 
forms, but in red Spruce in high elevations, it is--they are 
predisposed to winter injury by acidic deposition.
    Mr. Walden.  So this wasn't necessarily a sulfuric cloud 
that caused this?
    Mr. Perkins.  There would be acidic deposition of some 
sort, nitrogen, sulfur, which, over time, would render the 
plants more susceptible to cold temperatures.
    Mr. Walden.  So you think that is what happened here?
    Mr. Perkins.  I haven't looked closely, but I wouldn't be 
surprised.
    Mr. Walden.  Okay. Because I chaired the Forests and Forest 
Health Subcommittee and, you know, I cover an area that you can 
put New Hampshire in one county in my district. I am not 
bragging. It is just a huge district out West. We have 70,000 
square miles in my district alone. I have 10 national forests. 
I have seen damage like this out in the West. It was because of 
a winter freeze at the end of a cycle, kind of early spring 
that caused similar kind of degradation.
    Mr. Perkins.  This actually occurs in the middle of the 
wintertime, and it is very well related to acidic deposition.
    Mr. Walden.  I could never go back to Oregon if I didn't 
take great exception from my colleague from New Hampshire's 
comment about rain being something that is bad. Or we would 
have no visitors in Oregon or Washington or up in Alaska, 
either. I know what she meant, though. I understand fully.
    I want to talk a little bit about forest migration north. 
Because my understanding is that the boreal forests, you are 
moving these forests north; and, as a result, I believe the 
IPCC and others have found that actually contributes to global 
warming because you are losing the snow on the ground, 
replacing that with forests that actually absorb--in the 
northern environment, absorb and reflect heat or absorb the 
heat, I guess, where the snow would reflect it. Isn't that 
accurate? I think that is what the IPCC and other scientists 
have said.
    Mr. Wake.  Correct. As we expand the boreal forest you 
would expect those dark trees to absorb more of the acidic 
radiation and especially in the winter.
    Mr. Walden.  And the converse is true if we lose the rain 
forests. My understanding is, as they are being wiped out, by 
the way, so we can import wood here and other developing 
countries, we are allowing the destruction of the rain forests. 
We are allowing the complete obliteration of the forests in 
China and Russia and Indonesia. They are not being replaced; 
and, therefore, we are losing that carbon sync. Because don't 
forests, in the right environment, they contribute heavily, 
mightily as carbon syncs, do they not?
    Mr. Wake.  I would argue that all forests are carbon syncs, 
whether or not how much short wave radiation----
    Mr. Walden.  Right. There is a reflective capacity; and, as 
they change, you can have that.
    So I get to an issue that I have pounded on this in 
committee. About 5 years ago this August, 500,000 acres burned 
on National Federal forest lands; and that contributed enough 
greenhouse gas in the State of Oregon to equal the equivalent 
of one-sixth of all auto emissions for a year. And, ladies and 
gentlemen, your Federal forests out West are horribly 
mismanaged, overgrown, fire-prone; and, according to the 
Government Accountability Office, when they do burn, there is a 
million acres today of Federal forest land that has never been 
replanted because we don't go in after--everything gets 
litigated, objected to, and so we don't get in there, and we 
haven't allocated the resources necessary to do the thinning, 
to do the stand management.
    You are a forester. You have a wood lot, right?
    Mr. Wake.  I have a wood lot.
    Mr. Walden.  Now I thought I heard the word ``logging 
truck'' come out of your mouth. Do you log?
    Mr. Wake.  I don't log on a commercial scale, no.
    Mr. Walden.  But you manage your forest, I would assume. 
You are a responsible person.
    Mr. Wake.  I allow my forest to manage itself, because I 
believe in the biodiversity of northern forests.
    Mr. Walden.  As do I. But does that mean in the West you 
would recognize that if you don't manage properly and you 
inhibit nature from doing the kind of fire regime that used to 
occur pre turn of the last century, then you end up with very 
unnatural forest conditions that result in catastrophic fire, 
greenhouse gas emissions that are abnormal and contribute to 
this whole problem?
    Mr. Wake.  I am no expert on western forests.
    Mr. Walden.  Dr. Perkins, you are a forestry person?
    Mr. Perkins.  Again, I have no experience in western 
forests.
    Mr. Walden.  All right. I don't know much about maple 
either, but I am trying to learn.
    My point is, if we manage the forests better, we can 
accomplish two goals: carbon sequestration and less emissions 
due to forest fires on your Federal forest lands in the West.
    With that, thank you, Mr. Chairman
    The Chairman.  Thank the gentleman.
    The gentleman from New Hampshire, Mr. Hodes.
    Mr. Hodes.  Thank you, Mr. Chairman.
    My question is addressed to Ms. Chamberlin and Ms. 
Blaisdell both.
    You have each been involved--Ms. Chamberlin on a State 
level, Ms. Blaisdell on a corporate level--in assessing many 
different strategies for reducing greenhouse gas emissions. In 
your experience, which strategies--efficiencies in buildings 
and transportation, increasing renewable energy use, and many 
others--which strategies stand to be the most economically 
viable for reducing greenhouse gas emissions and which ones are 
the most costly to implement?
    Ms. Chamberlin.  I am glad you brought up that question, 
Congressman. I think we have neglected a little bit the issue 
of energy efficiency and conservation. It is a very important 
point and one that Governor Lynch has lead by example. He has 
asked the State government to reduce energy use by 10 percent 
across government, and we think that that is a good standard 
for the rest of the economy's private sector and businesses to 
look at, and indeed greater conservation than that can be 
achieved.
    So I would say, without a doubt, that energy efficiency and 
conservation need to be at the top of our list for the most 
cost-effective way to reduce greenhouse gas emissions.
    And, secondly, we focused on the development of renewable 
energy, and I have talked some about that in New Hampshire. We 
believe that that brings money into our local economy, that it 
is a strong step towards energy independence both for the 
region and the Nation. It is an important tool and one that we 
hope will be economic for the region and indeed bring jobs and 
improve the economy locally.
    So those would be my top two.
    Mr. Hodes.  Ms. Blaisdell, from the corporate perspective?
    Ms. Blaisdell.  I would agree with Mrs. Chamberlin that 
energy efficiency is by far the most cost-effective way for us 
to reduce our greenhouse gas emissions. I think, on the more 
costly end, investing in renewable energy has been challenging 
for us, because there has been a patchwork of rebates and 
incentives over the years for renewable energy. So, because of 
that patchwork, there has been no consistency in cost of things 
like solar panels and wind turbines because those industries 
have had to respond to fluctuations and economic incentives.
    Another opportunity for us is to come up with useful tools 
for evaluating the carbon footprints of our product so we can 
use the market to incentivize both factories and raw materials, 
suppliers that produce lower carbon footprints through the 
manufacturing processes.
    Mr. Hodes.  So I take it from your answer that consistent, 
clear national regulation or incentives as it may happen for 
the development of renewable and alternative energies would be 
a big boon.
    Ms. Blaisdell.  And I think it has to last over a period of 
longer than 2 years, which is what we have seen in the past. 
These things come in 2- to 3-year waves. So we really need to 
encourage that industry to grow and get competitive with 
longer-term incentives.
    The Chairman. The gentlelady from New Hampshire.
    Ms. Shea-Porter.  Thank you.
    I have to speak to the colleague from Wisconsin who is 
talking about their season, the winter season being low on 
tourism; and I guess we are hardier here in New England because 
we do have a great winter tourism. We also have a sea coast 
that he is welcome to come see, and we are concerned about the 
sea coast as well as the mountains.
    Having said that, I would like to say that regions do 
impact one another, that we do need a Federal approach. 
Because, for example, New Hampshire and the Northeast is called 
the tailpipe of the country. We receive a lot of the nasty 
stuff coming from the Midwest and other areas. And I want you 
to address that if you would, Doctor, please, what the tailpipe 
is about and what the Federal Government can do and what 
Congress can do to help.
    Mr. Wake.  The tailpipe refers to the fact that there are 
these emissions from the Midwest and we have prevailing 
westerly winds and a lot of that pollution ends up making their 
way here to the Northeast.
    There already has been superb Federal legislation that has 
actually reduced the amount of sulfur dioxide that is emitted 
into the atmosphere and lead, but that is sort of a different 
issue.
    But, interestingly enough, back in the 1970s and 1990s when 
the Clean Air Act was passed, industry did come out and say it 
would ruin industry. And what happened is that we had a bunch 
of engineers that figured out the technology, figured out the 
cost-effective ways to reduce that sulfur dioxide, and now you 
never hear about the fact that sulfur dioxide cost sort of 
dollars per ton as opposed to hundreds of dollars per ton.
    What I think is important there, and we haven't raised a 
lot in our discussion today, is the cost of doing nothing. We 
always talk about the cost of doing something. But there is a 
cost to our inaction. And in the case of reducing sulfur 
dioxide emissions, we know that fine particles and ozone, which 
is a secondary pollutant that gets transported into this 
region, ends up in the premature mortality of tens of thousands 
of people across the entire country. Many of those are in the 
Northeast.
    So I think when we talk about reducing our greenhouse gas 
emissions, especially through energy efficiency, we can also 
talk about reducing those other emissions that actually 
significantly impact human health, and we can reduce those tens 
of thousands of people that die prematurely as a result of air 
pollution both in New England and across the rest of the 
country.
    Ms. Shea-Porter.  We have higher rates of asthma and 
cancer, and we have concerns. It shows that the Federal 
Government, when they work together and Congress, we can 
actually can pass some legislation that helps all of us. So it 
is good for us to think in terms of the Nation instead of just 
regions.
    Dr. Perkins, I wanted to ask you, the impact--I know that--
we read your statement--the impact economically on Vermont if 
we don't address this.
    Mr. Perkins.  The economic impact on Vermont just directly 
related to the maple industry is about $20 million. However, 
the total economic activity related to maple discounting 
tourism is closer to about $200 million due to jobs, 
manufacturing, export of maple syrup into other areas. So it is 
a very large impact.
    When we start to count it in tourism, it becomes much, much 
larger. And the two industries really work hand in hand. Many 
tourists who come, even in the fall, will purchase maple syrup 
and visit sugarhouses and contribute to that economic activity. 
So the loss of the maple sugaring industry, the loss of maple 
trees would have a tremendous impact.
    Ms. Shea-Porter.  Would you say that businesses in Vermont 
look forward to some kind of legislation to slow down this 
change?
    Mr. Perkins.  I certainly can't speak for all businesses in 
Vermont related to maple. However, I do think if maple were to 
not exist in Vermont it would be a real tragedy.
    Ms. Shea-Porter.  Do most maple syrup producers look at it 
as a result of the change in climate?
    Mr. Perkins.  Many of them are very concerned. They tend to 
be very forward-thinking individuals who look at their business 
in the very long-term sense. So they are concerned. They are 
unsure yet as to what they can do about it and what should be 
done about it.
    Ms. Shea-Porter.  So basically everybody is looking for 
some leadership to control this.
    Mr. Perkins.  They certainly are.
    The Chairman.  Great.
    The gentlelady's time has expired.
    And the way I would like to conclude here is first ask if 
any of the Members have any additional questions which they 
would like to pose to the committee--I mean, to the panel; and 
I see none.
    What I like to do is ask each of our witnesses if they 
would to give us their one-minute summary of what you want us 
to remember from our visit here to the summit; and we will 
begin with you, Ms. Blaisdell.
    Ms. Blaisdell.  I hope what I have shown is that the 
private sector is willing to lead and partner with the Federal 
Government on introducing a national framework for addressing 
greenhouse gas emissions and just to revisit my testimony and 
say that we want to make sure there is a legislation for 
economy-wide emission reductions.
    I will leave it at that.
    The Chairman. Mr. Koury.
    Mr. Koury.  Thank you, Mr. Chairman.
    I think the one thing I would like to leave with you is 
that back in the early 1970s we talked also about the costs of 
controlling pollution, and we worried about it. But we went 
forward. Congress went forward and passed the Clean Air Act and 
the Clean Water Act, and we had some tremendous improvements in 
air quality, water quality. We have had new industries that 
have grown up around that. We have had more jobs, and our 
economy right now is prospering very well.
    So as we look forward to this greenhouse gas emissions, it 
is a pollutant, we should reduce pollutants everywhere, 
regardless of what we think may or may not occur anyway. There 
are tremendous secondary benefits coming from it; and I--again, 
I hope this committee is the first wave to get the ball 
rolling.
    The Chairman.  Thank you.
    Dr. Wake.
    Mr. Wake.  I would like to talk briefly about this myth 
about the economy versus the environment. It is old news. It is 
now the economy and the environment. Our economy--our 
environment is the basis of our economy in this region, and we 
need to protect it.
    I want to take 30 seconds to brag about the University of 
New Hampshire as an example. We have reduced our greenhouse 
gasses significantly because it saves us money by improving our 
efficiency. So we have installed a combined heat and power 
plant because we need a heating load and we need an electricity 
load. So our greenhouse gas emissions now are about what they 
were in 1990; and if projects in the pipeline continue, we 
would expect to significantly reduce those even further by 
becoming energy efficient and saving the university system and 
the State money.
    I think it is a wonderful example. You can hear the ones 
from Timberland as well. There are lots of ways we can address 
this problem as well.
    Mr. Perkins.  I think the important thing to recognize is 
that, unless you want to buy your maple syrup on your fall 
foliage tour of Canada, we need to have some action.
    Thank you.
    Ms. Chamberlin.  Thank you for the final opportunity to 
speak.
    I want to again thank the committee for holding your 
inaugural hearing in New Hampshire on Cannon Mountain. I want 
to take just a second to thank our Parks service for making the 
facility available and all of the people who are in attendance 
today. I want to thank the public for coming and their 
continued interest and support; and, finally, with the 
leadership and partnership of the Federal Government, I am 
confident and the Governor is confident that we can address 
this issue, make a difference for New Hampshire and for the 
Nation and the world.
    Thank you.
    The Chairman.  Thank you.
    It has been a great day for us to be up here on Cannon 
Mountain for this summit. There is another summit which is just 
beginning. It is in Germany. It is the G-8. Eight large 
economic powers coming together, but they have invited the 
Chinese and the Indians and others as well.
    And Chancellor Merkel told us in Germany, the select 
committee, when we met with her last week that she intends on 
putting climate change and a mandatory cap and trade system at 
the top of her list for resolution.
    Our hope is that President Bush will respond to this 
challenge that is being presented by the G-8 to the United 
States to be the leader and not the laggard.
    We were faced with a similar challenge back in the 1970s 
and 1980s with this threat that acid rain posed to New 
England's lakes. Literally, our lakes were dying, and they were 
dying from this sulfur dioxide that was blowing our way from 
the Midwest. And it seemed as though--and Canada. It seemed it 
was an insolvable problem.
    But in 1990 we passed legislation. We conceived this idea 
of a cap and trade system. Silvio Conti, who was a congressman 
from western Massachusetts, and I introduced the first piece of 
legislation in 1981. It took almost a decade to see that 
legislation passed, but we now see that the system works. 
People no longer talk about the burdens to remove this sulfur 
dioxide as a huge economic burden, and I think we have an 
enormous opportunity in this area of carbon dioxide as well.
    Finally, I would tell you that we had a hearing, our first 
hearing, actually, about 2 months ago with General Gordon 
Sullivan who, along with 10 other three-star generals and 
admirals, testified as to the danger which climate change poses 
to the world and made a reference to Somalia where a drought 
had led to famine and famine had led to international aid 
coming in. Ultimately, that international aid was fought over; 
and we sent in U.S. troops, which led to Black Hawk Down.
    He then made reference to Darfur and other parts of the 
world where this climate change issue has tremendous effect 
upon our planet, and it is not these poorest of all people who 
are emitting this CO<INF>2</INF>. It is the industrialized 
world that is doing so.
    When I asked him what was the point at which he got 
interested in the issue, he told me that when he retired, he 
and his wife came up to Vermont to rekindle memories of trips 
that he had taken with his wife when they were younger, and it 
was the experience that he was having with the maple trees and 
this enormous change that was taking place and the 
conversations that he was having with people in Vermont that 
triggered his interest in the issue that then led to this 
report that these 11 three-star and four-star generals have 
given to Congress.
    And, by the way, inside of the CIA bill now and inside of 
the defense bill, there is now a requirement that is out of the 
House of Representatives in the last few weeks, a new 
requirement for a national intelligence estimate to be done of 
the impact of climate change and its effect upon national 
security in the United States. And all of that because of the 
General's visit to Vermont to remember the maple trees of his 
youth.
    So we thank each of our witnesses.
    Again, we thank all of the people of New Hampshire who have 
taken out a good part of your day to come up here on this 
important issue, and we thank you for your activism. We are 
here because you are active, because of the incredible energy 
which you have shown on this issue. We feel here that the 
thermometer, this is a thermometer in the sky which is helping 
us to see how global warming is affecting your economy.
    With that, we thank you, and this hearing is adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 57968A.024
    
    [GRAPHIC] [TIFF OMITTED] 57968A.025
    
    [GRAPHIC] [TIFF OMITTED] 57968A.026
    
    [GRAPHIC] [TIFF OMITTED] 57968A.027
    
    [GRAPHIC] [TIFF OMITTED] 57968A.028
    
    [GRAPHIC] [TIFF OMITTED] 57968A.029
    
    [GRAPHIC] [TIFF OMITTED] 57968A.030
    
    [GRAPHIC] [TIFF OMITTED] 57968A.031
    
    [GRAPHIC] [TIFF OMITTED] 57968A.032
    
    [GRAPHIC] [TIFF OMITTED] 57968A.033
    
    [GRAPHIC] [TIFF OMITTED] 57968A.034
    
    [GRAPHIC] [TIFF OMITTED] 57968A.035
    
    [GRAPHIC] [TIFF OMITTED] 57968A.036
    
    [GRAPHIC] [TIFF OMITTED] 57968A.037
    

</pre></body></html>
